<html>
<title> - MEMBER DAY HEARING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                           MEMBER DAY HEARING

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 31, 2019

                               __________

                           Serial No. 116-48

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-464 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                              
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Michael Guest, a Representative in Congress From 
  the State of Mississippi.......................................     1

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Statement of Hon. Alcee Hastings, a Representative in Congress 
    from the State of Florida....................................     1

 
                           MEMBER DAY HEARING

                              ----------                              


                       Thursday, October 31, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 8:32 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson and Guest.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. Pursuant to section 103(j) of House Resolution 
6, the committee is meeting today to conduct a Member Day.
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    I want to thank Members both on and off the committee for 
their hard work and contributions to the committee's work for 
this Congress to date. As always, I welcome input from all 
Members of the House, as the committee works to help ensure the 
security of the homeland.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Guest, for any statement he might have.
    Mr. Guest. Thank you, Mr. Chairman, and thank you for 
holding this Member Day hearing. I appreciate the committee 
providing all our colleagues the opportunity to testify here 
today in accordance with House rules.
    This forum provides an important opportunity to hear from 
Members outside the Homeland Security Committee on the critical 
issues they are working in within our committee's jurisdiction.
    I hope the testimony we hear today helps inform our 
committee's work, moving forward. I look forward to hearing 
from my colleagues on their legislative priorities.
    I yield back.
    Chairman Thompson. The committee has received testimony in 
writing, which will be part--made part of the record.
    [The statement of Hon. Hastings follows:]
Statement of Hon. Alcee Hastings, a Representative in Congress from the 
                            State of Florida
                            October 31, 2019
       in support of h.r. 2550, the prevent bleeding act of 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the House 
Committee on Homeland Security: I am deeply appreciative to have the 
opportunity to submit this testimony to the House Committee on Homeland 
Security in support of H.R. 2550, the Prevent Bloodloss with Emergency 
Equipment Devices Act of 2019, or the Prevent BLEEDing Act. I 
introduced this bipartisan legislation earlier this year with my 
colleague, Dr. Brad Wenstrup (R-OH-2), and a bipartisan companion bill 
will soon be introduced in the Senate. I respectfully request this 
committee's assistance in scheduling this bill for a markup so that it 
may be brought to the House floor for consideration.
    This legislation amends the Homeland Securily Act of 2002 to expand 
access to Bleeding Control Kits (BCKs) in public gathering places 
across the country. H.R. 2550 authorizes the use of Homeland Security 
Grant Program funding for States to purchase and distribute anti-blood 
loss supplies to schools, places of worship, shopping malls, and other 
public gathering places, and to support training on the proper use of 
such supplies. Our legislation makes a one-time authorization of $10 
million to carry out these provisions.
    Approximately 214,000 people die every year from traumatic 
incidents. Motor vehicle crashes, shootings, natural disasters, and 
workplace accidents, to name just a few, oftentimes result in 
situations where people suffer traumatic blood loss. Such an injury can 
lead to death within 5 minutes, where many of these deaths can be 
prevented.
    As Members of this committee are aware, the first National 
awareness campaign related to emergency blood loss began in the months 
following the massacre at Sandy Hook Elementary School in December 
2012. The Joint Committee to Create a National Policy to Enhance 
Survivability from Intentional Mass Casualty and Active Shooter Events 
brought together representatives of the Federal Government, members of 
the medical community, and others to publish a set of recommendations, 
known as the Hartford Consensus, for increasing National resilience in 
the face of mass casualty events. As a result of the Consensus, a 
Federal interagency workgroup initiated the ``Stop the Bleed'' campaign 
to train and equip the public with the necessary skills to help in 
bleeding emergencies before professional help arrives. Stop the Bleed 
is now being taught Nation-wide as the rate of mass casualty events 
continues to grow, with the goal of making this type of training as 
widely known as CPR, the Heimlich Maneuver, and ``Stop, Drop, and 
Roll,'' so that any bystander may assist during times of crisis.
    BCK's include easy-to-use, life-saving equipment such as 
tourniquets and wound dressings that promote blood clotting. These 
tools can make all the difference during emergencies with traumatic 
bleeding injuries, which is why several States have already started to 
take action to place them in schools. At the end of last year, Georgia 
became the first State to offer these kits and trainings to every 
public school. A new law in Texas requires school districts in the 
State to have a bleeding control program in place by January 2020 and 
will provide training to students in grade 7 and higher. And, in my own 
district, the Broward County Sherriff's office has purchased more than 
8,000 kits, with plans to purchase thousands more, to place them in 
every public and charter school in the county.
    H.R. 2550 will continue these efforts and help expand access to 
trainings in our community on the use of emergency blood loss supplies. 
The legislation is supported by The American College of Surgeons, the 
Society of Trauma Nurses, the American Society of Plastic Surgeons, the 
Trauma Center Association of America, and the American Association for 
the Surgery of Trauma, and has more than 2 dozen bipartisan cosponsors.
    I thank the committee for this opportunity and again urge 
consideration of this legislation.

    Chairman Thompson. This concludes testimony before the 
committee today.
    Without objection, the record shall be kept open for 10 
days.
    We would like to welcome our Member to a standing-room-only 
session.
    [Laughter.]
    Chairman Thompson. Hearing no further business, the 
committee stands adjourned.
    [Whereupon, at 8:34 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
